<html>
<title> - ASSESSING NASA'S UNDERUTILIZED REAL PROPERTY ASSETS AT THE KENNEDY SPACE CENTER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]









  ASSESSING NASA'S UNDERUTILIZED REAL PROPERTY ASSETS AT THE KENNEDY 
                              SPACE CENTER

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2014

                               __________

                           Serial No. 113-87

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

87-175 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 10, 2014................................     1

                               WITNESSES

Mr. Robert D. Cabana, Director, John F. Kennedy Space Center, 
  Nasa
    Oral Statement...............................................     6
    Written Statement............................................     8
Brigadier General Nina Armagno, Commander, 45th Space Wing, U.S. 
  Air Force
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. John Smith, Public Building Service Regional Commissioner, 
  Southeast Sunbelt Region, U.S. General Services Administration
    Oral Statement...............................................    22
    Written Statement............................................    24
Mr. Jim Kuzma, Chief Opeerating Officer, Space Florida
    Oral Statement...............................................    29
    Written Statement............................................    32
Mr. Charles Lee, Director of Advocacy, Central Florida Policy 
  Office, Audubon Society
    Oral Statement...............................................    45
    Written Statement............................................    48
Mr. John Walsh, Chief Executive Officer, Cape Canaversal Port 
  Authority
    Oral Statement...............................................    54
    Written Statement............................................    56

                                APPENDIX

Statement of Sen. Marco Rubio, submitted by Rep. Mica............    90

 
  ASSESSING NASA'S UNDERUTILIZED REAL PROPERTY ASSETS AT THE KENNEDY 
                              SPACE CENTER

                              ----------                              


                       Monday, February 10, 2014

                   House of Representatives
              Subcommittee on Government Operations
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Kennedy Space Center Visitor Complex 1, Kennedy Parkway, Cape 
Canaveral, Florida, Hon. John L. Mica [chairman of the 
subcommittee] presiding.
    Present: Representatives Mica, DeSantis, and Bentivolio.
    Also Present: Representatives Posey and Miller.
    Staff Present: Ashley H. Callen, Deputy Chief Counsel for 
Investigations; Linda Good, Chief Clerk; Mark D. Marin, Deputy 
Staff Director for Oversight; Jenna VanSant, Professional Staff 
Member.
    Mr. Mica. Good morning. I would like to welcome everyone 
this morning to the Committee on Oversight and Government 
Reform, the Subcommittee on Government Operations, welcome them 
first of all to our hearing this morning. This is a field 
hearing of the committee and subcommittee, and the title of 
this hearing is ``Assessing NASA's Underutilized Real Property 
Assets at the Kennedy Space Center.''
    First of all, I would like to thank the Visitor Center for 
accommodating us today, and NASA for also their assistance, and 
the Air Force for helping us. Yesterday we had a tour of the 
properties of NASA and the Air Force base. I would like to 
welcome everyone.
    We are actually in Mr. Posey's district and adjacent to Mr. 
DeSantis' district. We are joined today by both Mr. Posey and 
Mr. DeSantis. I will recognize them in a minute.
    We also have Mr. Bentivolio from Michigan, who is a member 
of the Government Reform and Oversight Committee.
    We are also joined by the distinguished gentle lady from 
Michigan who chairs the House Administration Committee, Candace 
Miller, and also a senior member of the Homeland Security 
Committee.
    The order of business. We will start with opening 
statements. We have a panel of witnesses. We have six witnesses 
today, someone from NASA, someone from the United States Air 
Force, U.S. General Services Administration, Space Florida, the 
Audubon Society, and the port of Port Canaveral.
    We will hear from those witnesses. We will go through all 
the witnesses, and then we will have questions from first 
members of the committee and then from those who are 
participating.
    Without objection, Mrs. Miller and Mr. Posey will be 
accepted as participants in this hearing even though they are 
not on the committee, and also entitled to question the 
witnesses and participate after the members of the committee 
have completed their responsibilities.
    Without objection, so ordered.
    So that is sort of the opening rules of how we will proceed 
today.
    Welcome, everyone, again, and thank you for your 
accommodation.
    We will start with opening statements, and I will give some 
remarks and a little bit of background, and then I will yield 
to any other members that wish to submit oral testimony or 
comments, opening statements today, or written statements for 
the record.
    So again, I thank everyone for coming. I am pleased to be 
here. I am particularly pleased that we would have fairly good 
representation from our members of Congress for a field 
hearing. Sometimes it is hard to get members out, although 
today is a beautiful day. We will have to go back and tell them 
what they missed in Florida. So, thank you for coming and 
making the trip, those from outside this area. And again, we 
are privileged to have two members who represent this area, 
most specifically Mr. Posey, and adjacent Mr. DeSantis.
    The reason that we have gathered here today is to review 
NASA and the Air Force options for dealing with either vacant 
or underutilized buildings or facilities, land, that may no 
longer be needed. The mission of NASA has dramatically changed 
in the last few years, and we are looking at more 
commercialization of the space activities that have 
traditionally been here for the past four decades.
    Currently, NASA has 144,000 acres and many facilities at 
the Cape Kennedy Center. In addition, the Air Force has some 
16,000 acres at the Canaveral Air Force Station. I think 
someone calculated today that is probably about 240 square 
miles of space. That is a huge piece of real estate.
    As the mission has changed, we find ourselves with--I 
believe the inventory that was provided to the committee--720 
buildings and structures on the NASA property, and the most 
recent information we have gotten from their database is 330 of 
those properties, buildings, or structures are either unused or 
vacant. Yesterday we had a chance with the committee and some 
of the committee staff to take a tour. We spent most of the 
latter part of the afternoon touring some specific sites.
    I asked earlier and we started this review early last year 
of some of the top square footage of vacant or properties that, 
again, are close to being totally underutilized. This was what 
was provided to us. That is the tough news.
    The good news is that actually since we got that inventory, 
we have put a little check, that little check mark. They have 
actually taken one of those properties off the list.
    Our review, and I think the members will concur, of the 
properties that we visited, and we covered most of those 
there--and I would like folks to come back for an historic or 
more of a tourist visit here. But yesterday was business. In 
looking at what is being done, I was fairly impressed with some 
of the progress that has been made to date and, again, the 
efforts to move forward in dealing with, again, a huge amount 
of inventory.
    Some time ago we produced a report actually on the 
Transportation Committee entitled ``The Federal Government Must 
Stop Sitting on Its Assets,'' a kind of cute title, but also 
descriptive of something that we need to do. We are the largest 
property and landowners in the world, and we have billions and 
billions, probably a trillion dollars' worth of assets that are 
either idle or underutilized.
    Having this in my own backyard, chairing formerly the 
Transportation Committee and now this Oversight Committee, we 
want to make certain that even in our own backyard and Mr. 
Posey's front yard and Mr. DenSantis' front yard, that we are 
good stewards of the properties entrusted to us by the 
taxpayer.
    So throughout my time in Congress, most recently we have 
tried to focus, not only here but around the country. Some of 
you may have seen our success with the Old Post Office in 
Washington, which is two blocks from the White House, sat 
vacant, part of it, for 15 years, costing $8 to $10 million a 
year. That will now be a 250-room hotel. Instead of costing $8 
to $10 million, it will get a quarter of a million dollars of 
revenue every month, plus a cut of the profits. Mr. Trump is 
going to be developing that. But that is one of our success 
stories.
    We had a power plant facility owned by the Federal 
Government in Georgetown which sat vacant for 10 years, costing 
about $2 million a year to maintain. That went up for sale and 
sold for $19.5 million, again stopping the bleeding and also 
seeing some realization of that asset for the taxpayers as far 
as a return.
    So last year we began this examination of NASA, and also 
the Air Force property, and their changing mission on this 
site. And again, I want to commend the leadership of both the 
Air Force and NASA for some of the progress that has been made.
    But what we want to do today is really see where we are 
going for the future. Yesterday, the director told me--I think 
there were 18,000 people approximately that worked at the Cape. 
We are down to about 8,000, and what we would like to do is go 
from 8,000 on up. Maybe we have hit bottom. But each of those 
buildings have the potential for, again, specific utilization 
where you can in some cases attract jobs, rent the property, in 
some cases a long-term lease, or even sell some of the property 
and get a return, get jobs back in this community, back in this 
section of the state.
    So they have done some of that already, and we will hear 
their story.
    We also face the reality of a unique property with security 
protocols and concerns both at NASA and at the Cape Canaveral 
Air Force Station, and they present certain challenges.
    I took, again, inventory of where we are going, and also 
have heard of desires by some in the community to expand some 
of the natural areas, and we do have the national Canaveral 
seashore. We have other areas where we have preserved and 
protected the environment, and I invited the Audubon Society 
representative to speak to us today about some of the thoughts 
that that part of our community and state--again, protecting 
natural treasures, what their interests would be for the 
future.
    Unfortunately, the process is slow. Some of the 
responsibility is Congress. Some is the bureaucracy that we 
have to deal with. We are going to look at and hear from these 
folks, too, how they have tried to address moving forward, 
again with a massive evolution from the government running 
everything to now a different scenario. Unfortunately, our part 
of that process in Congress, if necessary, needs to enact laws. 
We will see what changes we need to do, what suggestions we 
have, and we can go back and make their job easier in making 
this transition.
    So today we will review what property and facilities are 
required for the current time, and then we want to look into 
the future. You don't want to give away the store. You want to 
make certain that we are securing the assets we need for the 
Federal Government, for our space program, and also for 
preservation for the public as far as public lands are 
concerned.
    So we will continue this effort. This is the first hearing 
we have held. If necessary, we will hold some hearings in 
Washington as a follow-up with people who are not empaneled 
here today but people who do make those decisions.
    So now we face the challenge of evolving our space program, 
what has taken place here in the past. Yesterday, all of us who 
went on the tour sort of went on a tour of the history of the 
space program from 1962 to just days ago, when they had the 
most recent successes and launches from this area.
    But again, I think our job is to carefully review what has 
taken place and support viable options to putting to use these 
valuable taxpayer assets as soon as possible.
    So I would like to welcome our witnesses. We will get to 
them in a second. Let me first--well, we will do this. Mr. 
DeSantis, a member of the committee, did you have any comment?
    Mr. DeSantis. I just wanted to thank the chairman for 
taking the time to organize this, set this up. Thanks to the 
Space Center for hosting us, and thank you for all the 
witnesses for taking the time to come and testify about an 
important issue, I think, in terms of how this property is 
disposed of, to protect taxpayers, but also the potential that 
we have for some commercial opportunities. I think it is very 
important. So, thanks again to the chairman.
    Mr. Mica. Mr. Bentivolio?
    Mr. Bentivolio. Thank you, Mr. Chairman.
    I did want to say I have noticed it is apropos that two 
Michigan members of Congress are here, since so many 
Michiganders have moved here, or I think you call them 
snowbirds come down for the winter. In Michigan, sometimes I 
have heard Florida referred to as Michigan's southern 
peninsula, because so many of them do come to Florida during 
the winter months. And this year it was a good choice because 
there is two-and-a-half feet of snow, and I am in the southern 
part of Michigan.
    But other than that, I want to thank the chairman for 
hosting this hearing, as well as our witnesses. I really 
enjoyed the tour. Thank you very much. And thank you, Mr. 
Chairman.
    Mr. Mica. Thank you.
    The gentleman from our host district today, Mr. Posey.
    Mr. Posey. First I want to thank you, Congressman Mica, for 
holding this hearing, and from a personal perspective I want to 
thank you for including me. I am not on that Oversight 
Committee, but I appreciate you including me in this.
    Our taxpayers want accountability, and the hearings that 
you have been holding clearly are another great effort on your 
part and the part of Congress to try and provide better 
accountability. I hope you and members of the committee are 
pleased to learn how great NASA at KSC and the Air Force over 
on the Cape side are adapting to the new rules of facilitating 
our nation's space program in new ways.
    I note, for example, the building you drove by yesterday, 
you saw where they are now building the Orion. Two years ago it 
would have been considered excessive and unneeded property. 
Ultimately, it is very valuable property and very important for 
this nation and for this area.
    I want to thank you all for keeping in mind that the reason 
this 160,000-plus acres was acquired and utilized and currently 
owned by the Government is for our nation's space program.
    I will keep it brief, Mr. Chairman, and yield back. Thank 
you.
    Mr. Mica. Thank you again, and thank you for participating. 
No one watches over the space program more than Representative 
Posey. He is non-stop in our nation's capital and trying to 
make certain that we have every success possible here, and also 
a strong advocate for both our military, the Air Force, and 
NASA.
    I am pleased to yield now to the gentle lady from Michigan, 
Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I certainly 
appreciate as well your calling this hearing today. I have been 
here at this fantastic facility many times over my lifetime, 
but never in a hearing situation. So I am delighted to be here.
    When we think about the incredibly rich heritage that the 
space program has given our country and the world, quite 
frankly, I think it is an unfortunate reality in some ways that 
we are here thinking about the disposal of some of the 
facilities here rather than having the political will as a 
country to really buck up for the space program. That perhaps 
is an issue for another day. I know we have huge supporters of 
the space program here today, but that is not always the case 
in the capital. Obviously, with fiscal restraints, et cetera, 
there are other priorities, I suppose.
    But when we think about what has happened in our world and 
all of the positive spinoffs that have happened because of 
NASA, you can't put a price on these kinds of things. We were 
just using a GPS on our way over here today, not that we got 
lost, but you get so you are using it. But it is a spinoff of 
what happened with the fantastic men and women that have served 
in NASA.
    So I am just delighted to be here. I think it will be a 
very interesting hearing as we are in the mode of trying to 
make sure that we get the best bang for the taxpayers' buck, 
certainly. And when I look at the distinguished panelists that 
we have here today, in particular Mr. Cabana and the General as 
well, we certainly appreciate the service that you have given 
to our country and to the world, quite frankly, and we are 
looking forward to hearing all the testimony of the witnesses 
today. Thank you.
    Mr. Mica. I thank the gentle lady.
    First of all, we have a statement by Senator Marco Rubio, a 
request to be entered in the record.
    Without objection, his statement will be entered in the 
record.
    Also, I will entertain a motion that the record be left 
open for a period of two weeks. Others may wish to submit 
testimony, other members.
    Without objection, so ordered.
    So, do we have any other representatives of any of the 
congressional offices?
    [No response.]
    Mr. Mica. Okay. I didn't want to ignore them, and if they 
do come in, we will introduce them.
    So with that, we will turn to our next order of business, 
to hear from our six witnesses. Today we have six witnesses.
    First we have Mr. Robert D. Cabana, and he is the Director 
of the JFK Space Center under NASA.
    We have Brigadier General Nina Armagno, and she is the 
Commander of the 45th Space Wing, Director of the Eastern 
Range, Patrick Air Force Base, the United States Air Force.
    We have John E.B. Smith, Regional Commissioner, Public 
Buildings Service, Southeast Sunbelt Region, U.S. General 
Services Administration.
    Mr. Jim Kuzma, Chief Operating Officer of Space Florida.
    Mr. Charles Lee, Director of Advocacy of the Central 
Florida Policy Office of the Florida Audubon Society.
    And then we have Mr. John Walsh, Chief Executive Officer of 
Cape Canaveral Port Authority.
    This is an investigations and oversight committee of 
Congress, and as such we do swear in all of our witnesses.
    I would ask our witnesses to please stand, raise your right 
hand.
    [Witnesses sworn.]
    Mr. Mica. Let the record reflect that all of the witnesses 
answered in the affirmative.
    And again, we will welcome each and every one of you. I 
thank you for being with us and helping us with our task today.
    First, again, we will go down the witnesses in the order in 
which I introduced them.
    Mr. Robert Cabana, not only the Director of the Kennedy 
Space Center, a great tour guide, and also a great 
administrator, at least from what we learned of his efforts 
here yesterday, and also a distinguished astronaut himself.
    Welcome, sir. What we are going to do is we will try to 
limit you to 5 minutes. If you have additional information or 
testimony you would like to be made part of the official record 
of today's proceedings, just request through the chair and we 
will do so.
    So, we will go through each one, try to give you your 5 
minutes.
    But welcome, and you are recognized, sir.

                       WITNESS STATEMENTS

                 STATEMENT OF ROBERT D. CABANA

    Mr. Cabana. Thank you, sir. Chairman Mica and members of 
the subcommittee, thank you for this opportunity to appear 
today to discuss NASA's management of its real property 
holdings here at the Kennedy Space Center, as well as Cape 
Canaveral Air Force Station.
    I do have an official statement that I would like to submit 
for the record.
    Mr. Mica. Without objection, that will be made a part of 
the record.
    Please proceed.
    Mr. Cabana. But I would like to use this opportunity to 
also bring forth the key message that I have in that statement.
    KSC is well on its way to establishing itself as a multi-
user space port. It supports both government and commercial 
flights of both crew and cargo to and from low-earth orbit and 
beyond. We have made great strides to become more efficient and 
cost effective, to divest of unneeded facilities, saving 
precious taxpayer dollars without diminishing our capabilities.
    We believe our story is an ongoing one of great success in 
transitioning this storied complex from 30 years of space 
shuttle operations to the 21st century launch complex of the 
future. This would not have been possible without the support 
of our elected officials at both the state and Federal level 
and the agreements that we have in place with our commercial 
partners.
    The Kennedy Space Center has had a glorious past, and we 
believe we have an even brighter future, and I look forward to 
your questions, sir.
    [Prepared statement of Mr. Cabana follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. That was very brief, but we will start with that.
    Now, she looks very young, but she is also a general, 
General Armagno from the Air Force, and she was also with us 
yesterday. I think we ruined everybody's Sunday here, but thank 
you again for your hospitality and showing us your area of 
responsibility at the Patrick Air Force Base section here 
adjacent to the Space Center.
    You are recognized.

          STATEMENT OF BRIGADIER GENERAL NINA ARMAGNO

    General Armagno. Mr. Chairman and distinguished members of 
today's hearing, it is my honor to be here representing Cape 
Canaveral Air Force Station and Patrick Air Force Base as the 
Commander of the 45th Space Wing and the Director of the 
Eastern Range.
    It is also my privilege to appear among my colleagues this 
morning to address the management of real property here at the 
world's premiere gateway to space.
    Every day, our nation, and especially our military 
personnel, rely on vital space-based products launched just 
across the river from where we sit. The rich heritage, 
geographic advantages, and resident expertise of Cape Canaveral 
Air Force Station, and the entire space coast for that matter, 
make it an attractive location for private-sector customers.
    Many commercial companies not only want to operate at our 
site but seek unused facilities to occupy. We give careful 
consideration to every request. We take our responsibility to 
manage our resources seriously by adhering to national space 
policies, public law, Department of Defense regulations, and 
Air Force guidelines. We lean forward to make excess or 
underutilized Eastern Range assets available when feasible.
    We understand many government approval processes are 
daunting, and we have attacked this issue over the past several 
years, attempting to balance the government's need for 
information and the need for timely responses that private 
entities depend on to be competitive.
    Our wing's front-door process welcomes representation from 
commercial companies, DOD-sponsored contractors, educational 
institutions and other private entities who are researching 
possible operations at our location.
    Space Florida, who is here with us today, has been a 
valuable partner and instrumental in guiding some of these 
customers through those actions. We have worked with Space 
Florida to facilitate their investment in up-front 
environmental reviews, explosive sitings, Air Force space 
command, space operations support agreements, and real property 
licenses for two space launch complexes.
    We are also pursuing with Space Florida licenses for 
additional facilities which could be used to prepare launch 
vehicles for flight. This investment clears several time and 
financial obstacles for future commercial companies wishing to 
operate at those locations.
    I am committed to working closely with our partners you see 
before you, the customers we are in contact with today, and 
those to come in the future to ensure we continue to fully 
utilize the vital resources we have been entrusted with.
    Despite challenges brought on by our fiscal realities, my 
priorities remain 100 percent mission success, igniting 
innovation, and deliberately developing the outstanding men and 
women of Team Patrick Cape.
    I thank the committee for your steadfast support of the men 
and women of the 45th Space Wing and our Air Force and our 
space mission. Thank you, Mr. Chairman.
    [Prepared statement of General Armagno follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Mica. Thank you.
    And now, back from a return engagement from an empty and 
vacant--I think we are going on six-year Dyer Courthouse in 
Miami. We did two hearings there. But it is nice to see you, 
Mr. Smith. Not only will I have some questions about where we 
are but where you have been.
    You are welcome and recognized, Mr. Smith.

                    STATEMENT OF JOHN SMITH

    Mr. Smith. Thank you, Mr. Chairman. Good morning, Chairman 
Mica and other distinguished members here today. My name is 
John Smith. I am the Public Buildings Service Regional 
Commissioner for GSA's Southeast Sunbelt Region. Thank you for 
the opportunity to join you here today at Kennedy Space Center 
to discuss GSA's ongoing effort to assist NASA in the disposal 
of its unneeded real estate.
    As one of more than two dozen major Federal landholding 
agencies, GSA manages only about 375 million of the nearly 3.3 
billion square feet of space under the government's control. 
However, we have the statutory authority to acquire, manage, 
utilize, and dispose of real property for most agencies.
    Within our own inventory, we have disposed of over 100 GSA-
managed properties nationwide, and we received over $160 
million in receipts for the Federal Buildings Fund since 2008, 
while avoiding more than $170 million in liability costs. Here 
in the Southeast Sunbelt Region, we have disposed of eight 
buildings to avoid more than $47 million in future maintenance 
and repairs, and generated approximately $17 million in sales.
    In addition to managing our own inventory, GSA is the 
primary real property disposal agent for the Federal 
Government. We work aggressively to identify and target 
unneeded assets for our partner Federal agencies.
    GSA also provides strategic direction to agencies seeking 
to remove properties from their own inventories. We assist 
agencies by developing a tailored disposal strategy specific to 
an asset's characteristics, environmental laws, issues, 
community interests, market conditions, and other factors that 
influence the repositioning of unneeded real estate.
    When preparing a property for public sale, GSA develops 
marketing plans that optimize public offering. We use tools and 
techniques designed to reach a very broad audience and, when 
applicable, we target specific interests.
    While GSA has the expertise to navigate properties through 
the disposal process successfully, each individual landholding 
agency is responsible for making its own asset management 
decisions as to whether a property is excess to its needs.
    In the last five years, GSA has disposed of 713 Federal 
assets on behalf of GSA and other Federal agencies. GSA 
conducted the majority of these disposal actions through public 
sales on realestatesales.gov, which provides a cost-effective 
way to reach a wide dissemination of developmental interests 
and maximize the return for taxpayers. Most of these properties 
were not assets under GSA's jurisdiction, custody, or control.
    In Cape Canaveral, GSA is assisting NASA in developing 
asset management, utilization, and disposal strategies for 
unneeded facilities within the John F. Kennedy Space Center. 
Upon closure of the space shuttle program in 2011, NASA began 
exploring ways to balance a reduction of the agency's real 
estate footprint and operations and maintenance costs while 
assuring that they retain facilities that may be needed in 
future missions. While NASA has its own land-holding 
authorities, it utilizes GSA's to dispose of real property. To 
that end, NASA has engaged GSA to help develop strategies for 
disposition of its facilities at this site.
    Thus far, GSA has provided appraisal and appraisal review 
services to assist with asset management planning for a wide 
variety and range of facilities here and at the Cape Canaveral 
Air Force Station.
    Additionally, we have received reports of excess for four 
facilities. Together, these facilities account for 
approximately 54,000 square feet of space.
    GSA is now reviewing NASA's report of excess and will begin 
the disposal process. Our next step is Federal screening for 
each asset. We understand that the Air Force may express 
interest in acquiring the properties.
    If NASA reports additional facilities as excess, we will 
assist in collecting due diligence and run the properties 
through the disposal process. If there is no expression of 
Federal need for any of the facilities, GSA will conduct 
Federal screenings for the homeless under McKinney-Vento and 
available public benefit conveyance programs and, depending on 
the outcome of that review, market the properties and identify 
potential buyers.
    GSA's Southeast Sunbelt Region is pleased to assist with 
these efforts. We will continue to work with NASA and provide 
effective management and disposition of its unneeded real 
estate assets at Cape Canaveral and across the country. We look 
forward to working with this committee as this effort 
continues.
    On behalf of GSA's Public Buildings Service and the 
Southeast Sunbelt Region, thank you for the opportunity to be 
here. I am happy to answer any of your questions.
    [Prepared statement of Mr. Smith follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Thank you. As I said, we will withhold questions.
    We will hear from Jim Kuzma, Chief Operating Officer of 
Space Florida.
    Welcome, and you are recognized, sir.

                     STATEMENT OF JIM KUZMA

    Mr. Kuzma. Thank you, Chairman Mica and members of the 
subcommittee, for the opportunity to discuss Florida's 
perspective regarding Federal property that has supported the 
nation's space program but now lies underutilized and not 
needed for NASA's mission.
    Thank you, Representative Posey of the House Committee on 
Science, Space, and Technology, and its Space Subcommittee, for 
your presence here today and for your strong interest in past 
work in this area.
    In addressing this objective, I want to first acknowledge 
the efforts and progress the Kennedy Space Center has made to 
transition unneeded property.
    I also want to acknowledge the positive efforts of the Air 
Force to transition unneeded assets at Cape Canaveral and to 
work to address processes and procedures valuable to the 
commercial industry. We commend the continuing efforts to 
optimize the use of the Eastern Range.
    There are some very good people doing their very best to 
navigate solutions through a very complex situation, but there 
is more to be done. Change is hard, but change is imperative to 
face an industry and global marketplace that is rapidly 
evolving. We are focused on the long-term view that embraces 
and facilitates the spirit, agility, and business acumen of 
America's space industry entrepreneurs, not just a short-term 
transition. Cost-effective and reliable access to space is 
crucial for U.S. competitiveness.
    What to do with the unneeded assets at KSC is a matter of 
utmost importance to the future of U.S. competitiveness. The 
140,000 acres that comprises Kennedy Space Center was acquired 
by the government in the 1960s to support the nation's space 
program. Federal assets that are not needed now to meet mission 
requirements are still vital to the U.S. space transportation 
system.
    Space Florida's spaceport authority is its focal point for 
business development and growth in the U.S. industry here in 
Florida. We have broad statutory authorities and a full range 
of capabilities that are being used to support our commercial 
customers with our partners here at the Cape.
    Florida has been a leader in integrating space 
transportation into the fabric of our nation's transportation 
system. Our colleagues in Virginia, Alaska, and California have 
likewise demonstrated a willingness to assume responsibility 
for elements of U.S. space transportation development and 
operations.
    Congress has embraced a role for the states in helping to 
promote and facilitate the nation's space transportation 
infrastructure and directed NASA to reduce their footprint to 
be consistent with defined missions and resources.
    In March 2013, Senator Rubio introduced a unanimously 
adopted ``Sense of the Senate'' resolution that NASA should 
pursue opportunities such as expedited conveyance or transfer 
to a state or political subdivision unneeded assets in order to 
promote commercial and scientific space activity.
    We are working with our colleagues at the Commercial Space 
Federation to offer suggestions for updates to the Commercial 
Space Launch Act that would enhance the effectiveness of state 
participation, streamline the transfer of unneeded Federal 
property, and strengthen reporting requirements on efforts of 
various agencies to promote the country's commercial space 
industry.
    Through a combination of state funding and Space Florida's 
special district financing powers, Florida has provided more 
than $500 million to the transition of underutilized and 
unneeded property at both the Kennedy Space Center and the 
Cape. Some notable investments are highlighted in my written 
testimony to the subcommittee. Space Florida is now focused on 
the establishment of a state-facilitated, state-managed 
commercial space transportation capability to address the U.S. 
industry need for both vertical and horizontal facilities that 
can effectively compete internationally.
    The two components of this initiative are the proposed 
Shiloh launch complex, which would be located KSC's northern 
boundary, and the former Shuttle Landing Facility. The state's 
vision for both is a commercial operation by Space Florida and 
its partners under FAA spaceport licensing and regulatory 
authority.
    It is Space Florida's goal to provide a vertical launch 
site option to the commercial launch providers on land which is 
not under the jurisdiction of a Federal installation or Federal 
range. The need for such an option by the industry has been 
articulated by U.S. companies such as SpaceX, which is 
investigating alternative sites in Texas, Georgia, and 
elsewhere, in addition to ours here in Florida.
    Further, we believe that our proposed use is compatible 
with the longstanding conservation uses that have been 
established through NASA's management agreement with the U.S. 
Fish and Wildlife Service and the National Park Service.
    With regard to the shuttle landing facility, we have shared 
with NASA a number of specific concepts and approaches we 
believe are crucial to achieve a sustainable business model and 
compatible operations with ongoing Federal activities. I will 
highlight a few points of critical importance to the state to 
define the mutually beneficial partnership.
    Space Florida needs the freedom to manage and operate the 
facility in accordance with FAA standards. We propose to fully 
conform to other applicable Federal laws and regulations, but 
ask that the jurisdiction and laws of Florida apply.
    As responsible stewards of Florida's taxpayer resources, we 
seek a reasonable opportunity to achieve a sustainable, self-
supporting business model that allows us to effectively compete 
for and competitively service the specialized users we seek to 
attract. Other states and nations are vying for this industry 
and Florida hopes not to be disadvantaged by the location of 
its spaceport site on Federally-owned land.
    Florida needs clear rights to develop, improve, and sustain 
the infrastructure, doing so in an environmentally responsible 
way, for as long as the state may need the capability to 
support the industry and its users. There should be an 
opportunity for return on investment and security in the long-
term opportunity for sustained operations.
    The capability of commercial launch providers to operate 
independently from a Federal installation and range, at a site 
where they are in control of their own fate in meeting schedule 
commitments to their customers, is paramount to their ability 
to compete in the marketplace. We agree with NASA's IG that the 
agency's culture and business practices have been a significant 
impediment. The overarching strategy for the future is 
sometimes confused. Every agreement with a new facility is 
begun with a separate and unique transaction with different 
goals and outcomes. This results in confusing and complex 
contract development and management.
    The Inspector General also identified a ``keep it in case 
you need it'' approach as among the agency's response to 
uncertain requirements, and a NASA culture and governance 
structure that has blurred the lines of authority and limited 
NASA's ability to assess infrastructure needs from an 
overarching Agency perspective.
    We believe that the best success and best practices in 
disposal of unneeded Federal property can be found in the base 
realignment and closure process and other transfers of former 
defense facilities such as airports and seaports, a model that 
looked past short-term revenue generation options to a 
transition and divestiture of unneeded property, unneeded and 
underutilized property and its liability from the property list 
of the services without tails and claw-backs.
    The model also provided DOD with tools, allowing them to 
respond as a partner where the future of a community was 
adversely impacted by government decision.
    GSA has also delegated transfer authority in some of these 
through a public benefit conveyance process to place important 
transportation assets in the hands of a state or local entity. 
Some great examples may be found in California's Mojave 
Spaceport and Civilian Aerospace Test Center, Cecil Spaceport 
in Jacksonville, and the Ellington Field Airport in Houston. 
All have been success stories economically.
    Florida is committed to working with the Federal Government 
to seek ways to both reduce the Federal property liability and 
improve utilization of the land for its intended purpose. This 
can be done without compromising the overall balance of land 
uses which sustains stewardship of the environment, and without 
compromising NASA's ability to perform current or future 
missions.
    I thank you again for requesting a Florida perspective on 
the matter we are discussing today. I look forward to 
continuing to be a resource to the committee, your staff, and 
the Florida delegation whenever needed. I am pleased to answer 
any questions you may have.
    [Prepared statement of Mr. Kuzma follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Thank you. We will get to questions shortly.
    Mr. Charles Lee of the Florida Audubon Society.

                    STATEMENT OF CHARLES LEE

    Mr. Lee. Mr. Chairman, thank you for the opportunity to 
testify today.
    Mr. Mica. You are not picking up, Charles. Maybe a little 
bit closer?
    Mr. Lee. Maybe now?
    Mr. Mica. Yes, that is better.
    Mr. Lee. Mr. Chairman, thank you for the opportunity to 
present this testimony today. Members of the committee, I have 
written testimony that I would like to ask be placed ----
    Mr. Mica. Without objection, it will be made a part of the 
record.
    Please proceed.
    Mr. Lee. Thank you.
    Mr. Chairman, members of the committee, I have been 
involved as an employee of Audubon now for 41 years. Audubon is 
our state's oldest and largest environmental organization, 
having been formed in March of 1900, almost 114 years ago.
    During that span of time, a great part of our effort has 
been directed toward the conservation of the coastal resources 
associated with what we now know as the Merritt Island National 
Wildlife Refuge and Canaveral National Seashore.
    The 140,000-acre Merritt Island National Wildlife Refuge 
exists almost entirely upon lands that are owned by NASA. In 
1963, the Fish and Wildlife Service and Department of Interior 
entered into a cooperative interagency agreement establishing 
the refuge. Today, the refuge is home to over 1,000 species of 
plants, 500 species of birds, fish and wildlife, some 66 of 
which are listed by Federal and state governments as 
endangered, threatened, or otherwise imperiled.
    Perhaps more significantly, in 2012, 1.2 million people 
visited the Merritt Island National Wildlife Refuge. It is one 
of the most popular wildlife-viewing sites in the United States 
and the premier viewing site on the East Coast of the United 
States. In addition, over 215,000 sport fishermen utilize the 
waters of Mosquito Lagoon. Those visits generated in excess of 
$60 million of economic activity in Volusia and Brevard 
Counties.
    I am here today to present two recommendations to you, and 
these recommendations come out of the fact that the basis for 
the continued existence of the Merritt Island National Wildlife 
Refuge is fragile. NASA can withdraw land from the refuge at 
any time and could turn it over to private interests or public 
interests for development purposes.
    In comparison to that, in 1975, through the enactment of 
93-626 Public Law, the Congress of the United States recognized 
it was necessary to give Canaveral National Seashore the 
stability of primary control over the land within the National 
Seashore.
    Our first recommendation to you is that with regard to the 
land north of State Road 402, which is the access road to 
Canaveral National Seashore, we believe that the time has come 
to move that land permanently into the ownership of the 
Department of Interior U.S. Fish and Wildlife Service. It is 
significant to recognize that these are the lands that are 
utilized by those 1.2 million people.
    In 2012, after looking at the question of whether private 
industry space launch facilities should be located in the 
northern area north of State Route 402, a study that was 
conducted by NASA in 2008, in 2012 the Kennedy Space Center 
adopted a long-term management plan known as Kennedy Space 
Center Future Development Concept 2012 to 2031. This divided 
the natural areas within the Kennedy Space Center into two 
zones, Operational Buffer 1 north of State Route 402, and 
Operational Buffer 2 south of State Route 402.
    We believe that with regard to Operational Buffer 1, it is 
time to seriously consider moving those lands into the 
ownership of the Department of Interior U.S. Fish and Wildlife 
Service.
    With regard to Operational Buffer 2, we suggest that NASA 
and the U.S. Fish and Wildlife Service be directed to review 
the status of the larger blocks of those lands to determine 
which portions of this land, if any, are appropriate for 
ownership transfer to the Fish and Wildlife Service.
    The second recommendation goes to some questions you may 
have heard discussed by the gentleman from Space Florida. We 
believe that it is very important that with regard to those 330 
vacant buildings, Mr. Chairman, that you mentioned, and with 
regard to many thousands of acres of either developed or 
undeveloped land that could be developed in an environmentally 
desirable way for private space industry use south of State 
Road 402 which would not interrupt the public use of the 
National Wildlife Refuge, we believe that a maximum effort 
needs to be made to repurpose those properties for use by the 
private space industry and for use by Space Florida.
    We would point out that in the recent controversial 
proposal of Space Florida to cut land out of the National 
Wildlife Refuge and to potentially close access to those 
several million visitors that are coming, that the reason given 
by Space Florida to move 10 miles north of NASA's launch 
compound is a claim that they can't work with NASA, is a claim 
that they can't work within NASA's security regulations or 
within the combined launch schedules of the Air Force or NASA.
    We think, Mr. Chairman, that it is Congress' role to make 
sure that the bureaucracy does not require private space 
industry to be forced into the pristine areas of the Merritt 
Island National Wildlife Refuge because they cannot align their 
regulations and launch schedules with the need of the private 
space industry.
    Now, we regard the claims of Space Florida with some 
skepticism, and the reason for our skepticism is that we and 
the rest of the world know that as Space Florida is making 
those claims and is trying to stake out its private area in the 
northern area of the National Wildlife Refuge, space companies 
such as SpaceX are moving quickly to try to reach their own 
agreements with NASA south of State Road 402. So we are, 
frankly, in all candor, not sure how legitimate the issue is.
    But if, in fact, it is the case that Space Florida is being 
forced to locate 10 miles north of State Road 402 in the heart 
of the refuge because of the policies of NASA and the Air 
Force, we believe that with regard to those policies, the 
better course of action, in the interest of those 1.2 million 
visitors, is for Congress to move quickly to make sure that the 
red tape is sliced through and that an area perhaps to be owned 
by Space Florida--perhaps, as the gentleman from Space Florida 
said, entirely under their ownership--be granted to them south 
of State Road 402 where the space industry could flourish and 
where there would no longer be the threat of any interruption 
to the visitors that utilize the area in the National Wildlife 
Refuge.
    The final thing that I will say ----
    Mr. Mica. Could you wrap it up? I have given you 3 extra 
minutes, but just wrap it up real quickly, and we will have a 
chance during questions.
    Mr. Lee. Great. I just wanted to conclude by saying that 
the northern end of the refuge north of State Road 402 has been 
spared most of the public closures because of the good planning 
of NASA to place everything south of 402. The launch 
trajectories don't go over the refuge and the seashore, and 
State Road 402 is relocated north to actually make sure that 
when the shuttle program was going there would not be long-term 
closures of Canaveral National Seashore.
    And so we think very clearly NASA's plan from 2012 is the 
way to go, following that plan, inserting the private space 
industry south of State Road 402, and we support that.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Lee follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. I thank the gentleman.
    Now we will hear from our final witness, Mr. John Walsh, 
CEO of Cape Canaveral Port Authority.
    Welcome, and you are recognized.

                    STATEMENT OF JOHN WALSH

    Mr. Walsh. Thank you, Mr. Chairman and members of the 
hearing today.
    Canaveral Port Authority is an independent Port Authority, 
chartered and authorized under the State of Florida. CPA is now 
the second busiest cruise port in the world. Over 4 million 
cruise passenger movements take place annually, with plans to 
double this by mid-2020s.
    In 2012, the Port aggressively proceeded with cargo 
expansion, with two new piers and over 80-acre container backup 
terminal region to expand trade and cargo badly needed into 
central Florida.
    Over $70 million has been invested in these two deep-water 
berths, with two ship-to-shore post-Panama container cranes 
arriving this March. Eventually, another $150 million will be 
invested by both the port and private terminal operators.
    The port today has total direct and indirect jobs from the 
port activity that now exceed 17,000. CPA currently has a $3.5 
billion net economic impact to the region each and every year.
    Direct rail service is a critical component for dynamic and 
vibrant cargo business at Port Canaveral. The Florida East 
Coast Railroad, which serves the east coast of the Florida 
peninsula, is situated west of Route 1. In 2012, CPA began 
discussions with Kennedy Space Center planners to explore rail 
connections to the port. CPA looked at working with Kennedy 
Space Center planners, the Cape Canaveral Air Force Station 
planners, and eventually five routes were put into place. But 
by process of elimination, the route utilizing the Upper Jay-
Jay Bridge, maintaining service through Kennedy Space Center, 
has appeared as the preferred route and option.
    A Phase II study has been completed, with positive results, 
and lead to the need for agreements with Kennedy Space Center 
for an EIS with a Federal sponsor separate from Kennedy Space 
Center. KSC would remain a cooperating agency in this EIS. CPA 
is now working with MARAD, the Maritime Administration, as its 
EIS Federal sponsor.
    CPA and Kennedy Space Center staff are currently also 
working on a space agreement to perform added testing such as 
vibration impact analysis so that the rails do not have a 
negative impact on the prime operations of the phase.
    CPA appreciates the open and willing efforts of NASA staff 
and leadership to work with CPA on the proposed rail asset 
transfer and operating agreements. This would be a classic 3-P 
initiative to reduce NASA's operating cost and not having to go 
it alone on rail, and the port can have rail service badly 
needed to create jobs, growth, and regional economic 
development.
    This project still has many hurdles, and the process to go 
through the EIS will be able to allow all needed agencies and 
stakeholders to understand how this rail can be built safely 
and continue with care for our environment. The port has always 
made the environment one of our key priorities.
    CPA has a limited amount of land available today for 
growth. One request of CPA is that the submerged lands north of 
the port need a mutual review with NASA as there is a 1963 
agreement and a 1964 agreement that have a 100-acre overlap to 
each other.
    CPA has also reached out to the United States Air Force 
with an unsolicited offer from CPA to lease Air Force lands 
adjacent to and north of the Middle Basin. This offer was 
issued to General Armagno and, after review with space command, 
has been submitted to the U.S. Air Force Civil Engineering Unit 
in Texas for an ELU review. We appreciate the General's open-
mindedness to explore these concepts through the established 
ELU process and procedures.
    In closing, we appreciate the congressional hearing today 
as a way CPA can work openly and transparently to continue 
communication with our two Federal partners in Brevard County 
to expedite these critical initiatives. We can create 5,000 
living-wage jobs in the port region over the next five to seven 
years, and at least 10,000 additional jobs over the next 10 to 
15 years working with private infrastructure industries.
    Our mission is to lift up our community, creating high-
quality jobs in diverse industries, good logistics, and leads 
to good manufacturing. This community and the region need the 
stakeholders at this hearing to pledge to work diligently 
together so our community can proudly support their families 
with thousands of former workers back to work again. Nothing 
replaces the feeling of a hand up and a job instead of a hand 
out.
    Our area is filled with blight and economic ravage from the 
downturn of the space programs. We can do better. We can 
diversify our region. We can supply a growing state with goods 
and services it needs right here from east central Florida. 
This rail and land discussed today can allow CPA to do our part 
to put those 10,000 to 15,000 people to work. If we can send a 
Rover to Mars, surely we can connect 10 miles of railroad and a 
technology that has been done since the 1800s.
    We believe this is doable, and we share in the 
responsibility to make it happen. I believe we can redefine our 
future now, and as new industries grow from this port into our 
industrial parks, we need to have strong infrastructure to link 
ourselves to the world economy.
    Strong communities and economies grow out of strong and 
dynamic ports, airports and seaports, as well as space ports. 
This seaport can be the backbone and driver of your continued 
help. We truly appreciate the start of this process with Mr. 
Bob Cabana and General Nina Armagno, as well as the respective 
staffs. We know we can bring this mission to a success.
    Thank you, members of the committee.
    [Prepared statement of Mr. Walsh follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Thank you, and I thank all of the witnesses.
    We will launch right into questions.
    First of all, Director Cabana, and then General Armagno, 
both in charge locally with carrying out the mission, and 
Congress has said in an act, I guess the authorization act you 
all did in 2010 for NASA, that we would move forward with 
right-sizing these operations, both the NASA and also the Air 
Force property here.
    I heard interesting testimony today from Space Florida. Jim 
Kuzma said there are sometimes blurred lines. I know you are 
both trying to do your best on the ground here. Can you give us 
a candid assessment of any impediments or anything you think we 
could do to speed up the process?
    We have also heard from GSA. GSA told me--Mr. Smith told us 
he has 54,000 square feet that has been turned over to him, 
determined as excess. That is not a lot considering all the 
property and space that we have here.
    So, I want to know two things.
    One, how can we speed this process up? What tools do you 
need to have us move forward? And if there are blurred lines, 
what lines need to be cleared up?
    So first we will hear from the director and then the 
General. Can you tell us again your candid assessment of how we 
get things moving even faster?
    Mr. Cabana. Mr. Chairman, I don't believe there are blurred 
lines. I think it is very clear how we are dealing with our 
property. We did an intensive study post-Shuttle to determine 
what facilities we needed for our future programs, our 
exploration programs.
    Mr. Mica. Is that the 2012 study?
    Mr. Cabana. It was, and we have our--there are two things. 
First off, the future development concept that was mentioned, 
that is complete. It has been reviewed by headquarters and 
approved. We have our new master plan up at headquarters now 
and we are waiting for final approval of that so that we can 
release it.
    But we did a study within the program also, the exploration 
program, systems development in SLS, the space launch system, 
to determine what we actually needed facilities-wise, and we 
are divesting ourselves of those we don't need. We took a close 
look at which ones we could convert to commercial use, which 
would be given to other Federal agencies. Specifically, the Air 
Force is interested in some at Cape Canaveral Air Force 
Station, and also some facilities on the Kennedy side.
    Mr. Mica. So then you say you have--you have enough as far 
as ----
    Mr. Cabana. We have a plan.
    Mr. Mica. You have plans in place.
    Mr. Cabana. We are executing it.
    Mr. Mica. You are executing it, and you don't see any delay 
in time or authority?
    Mr. Cabana. It has been--well, there are numerous 
authorities that we use to transfer these facilities. We have 
the Enhanced Use Lease Space Act Agreement, use permits, 
commercial space launch agreements, and concessionaire 
agreements.
    Mr. Mica. Right. But you have all--all of those would all 
be tools that you can execute.
    Mr. Cabana. I believe we have the tools.
    Mr. Mica. So we have this little list up here, and since we 
started this about a year ago we now have a check-off on one of 
these top six properties, at least in space.
    Mr. Cabana. On those properties, we are using the one that 
is checked, and all the others are slated for demolition. So we 
have a plan.
    Mr. Mica. Okay. So again, there is no potential use.
    Mr. Cabana. No, sir.
    Mr. Mica. Nothing is going to be transferred to ----
    Mr. Cabana. There was no interest.
    Mr. Mica.--to Mr. Smith.
    Mr. Cabana. We went out to industry. We went out and asked 
for anybody that was interested in any of the vacant 
facilities.
    Mr. Mica. And they are not interested. Now, you did point 
out yesterday in one of your demolitions you were able to 
recoup a certain amount of money for materials and all that. 
That sounded beneficial to the taxpayers. But again, we are 
trying to see what the long-term plan is, and I have a whole 
bunch of different reports, and they are not all buildings. 
Some are small structures. Some are launch pads and other 
things that aren't easily transferred to another use.
    Mr. Cabana. Yes, sir.
    Mr. Mica. So you feel you have enough authority to move 
forward on an expedited basis.
    Mr. Cabana. Well, as quickly as we can within the system, 
sir. Part of the problem is a lot of this hadn't been done 
before, and each one of these agreements that we enter into is 
unique to the facility and the customer that is taking it over. 
So we use a different ----
    Mr. Mica. Right. It isn't just a typical situation, and you 
are in a secure area here that is somewhat unique.
    Mr. Cabana. Yes, sir.
    Mr. Mica. And again, the broad nature of the property.
    Mr. Cabana. We also retain ownership of the land 
underneath.
    Mr. Mica. Right, and that would be your intent for all of 
the land?
    Mr. Cabana. Yes, sir.
    Mr. Mica. Or you are looking at disposing of any?
    Mr. Cabana. No, sir. We are looking to keep all the land as 
a buffer zone and as part of our secure area. We have also ----
    Mr. Mica. The land that the port is interested in, Mr. 
Walsh, is that Air Force or is that NASA?
    Mr. Walsh. The land lease is Air Force, Congressman.
    Mr. Mica. Air Force? Okay.
    Well, let me hear from the General, then. Now, do you have 
the authority? Are you able to move forward? And then what have 
you done to, again, comply with the terms of what Congress 
passed, both authorization and also in a recent ``Sense of 
Congress'' that was passed in the budget?
    General Armagno. Thank you, Mr. Chairman, for your 
question. I think this hearing has been a great opportunity to 
get the word out that the space mission is very much alive and 
well here at Cape Canaveral Air Force Station.
    As the Air Force has flown out old capabilities such as 
Titan and Atlas, we have replaced old capability with new. I 
believe I have the tools. I agree with Mr. Cabana. We don't 
have blurred lines, and there are no impediments to the actions 
we need to take. We have the tools that we need I know on the 
Air Force side of the 16,000 acres on Cape Canaveral Air Force 
Station, roughly 1,600 facilities.
    We do a quarterly review. We lean forward. We have a robust 
accountability process. We have three choices with our 
property. We either continue to use the buildings with the 
viable missions that are there. We can lease to new partners. 
Or we have a very small amount that is currently vacant. About 
11 percent of our property is vacant, and that equates to about 
eight facilities that we are looking to new customers for.
    Mr. Mica. What about that we heard Mr. Walsh say he has a 
proposal before Air Force? How long will that take to process?
    General Armagno. Sir, we received Mr. Walsh's proposal in 
January, and it is an incremental proposal. It begins with 
about 20 acres of land that they are looking at on our port 
side, which is the very south end of Cape Canaveral Air Force 
Station, and they are looking to expand their cargo operations 
at an area of the Cape that could be potentially dual use. The 
Air Force uses that port property to bring in our large 
boosters and other launch vehicle equipment.
    We also know that the Army has some staging area down there 
and, of course, the Navy uses the southern area of our port.
    So I have briefed my chain of command and we have taken 
this proposal and given it to the Air Force Civil Engineer 
Center for them to do an operational assessment.
    Mr. Mica. When do you think we would hear something back?
    General Armagno. Sir, we are hoping to hear something back 
in the next few months. We are hoping six months, and we will 
be very anxious to receive that assessment.
    Mr. Mica. Okay. Then we have the proposal. Mr. Posey and I 
made an attempt a couple of years ago with your predecessor to 
look at the possibility of getting rail into the port. The port 
is a huge economic generator. I don't know how many hundreds of 
additional jobs we could have through this expansion, but we 
were just turned down flat. We want to tell you that you are a 
breath of fresh air from the West Coast. I guess you came from 
Vandenberg, where they had actually had some activity, where 
they had a rail line. We looked at that yesterday, and it 
doesn't seem like something that can't be accomplished with 
people working together. We looked at the line coming in, and 
they do deliver, I guess, the solid rocket boosters from Utah 
where they are produced, and they end up--we went to the site 
where they are delivered, and the line looked like it was in 
pretty good shape.
    So it is something I think that we would like to see 
everyone work on because, again, this is about jobs, this is 
about expanding the economy, not to mention there might be some 
revenue for the Air Force.
    I didn't ask Mr. Cabana how much money are you getting on 
any lease.
    Incidentally, he didn't do a good job telling you all the 
things he has done, but we did look at 39A and B and his 
transformation of some of that. Part of it is used by SpaceX, I 
guess.
    Mr. Cabana. If I could, sir, we have 53 agreements in place 
right now, and more in work.
    Mr. Mica. Okay. You have to toot your horn, Cabana.
    [Laughter.]
    Mr. Cabana. It is in my written statement, sir.
    Mr. Mica. Yes, but these guys didn't catch it here.
    Mr. Cabana. But if I could, we have recently selected 
SpaceX to take over operations at Pad 39A. They are going to 
move in there. We should be closing that agreement with them 
here in the next few weeks or so.
    Mr. Mica. A huge vehicle assembly building he is 
converting, I guess, into dual uses.
    Mr. Cabana. Well, one bay we are going to use for our space 
launch system, and we are looking at Bay 1, offering that to a 
commercial company along with mobile launch platforms. That 
announcement still has to go out. We are working through the 
process on that. The Orbiter processing facilities we found 
users for. All the major, the really high-dollar-value items 
that will enable commercial space operations, we are moving 
forward.
    Mr. Mica. Have you got any amount of lease money coming in?
    Mr. Cabana. We do have some money coming in. I don't have 
the numbers for you. I can get that.
    Mr. Mica. If you could provide that to the committee, we 
would just like to see what you are getting in ----
    Mr. Cabana. Sure.
    Mr. Mica.--from what you are turning around.
    Mr. Cabana. In some cases they are paying just direct costs 
because it is through commercial space launch agreements where 
it enables commercial space operations, but we are not making 
money. But the real benefit here is that we are not paying 
money to maintain these facilities. They have been taken off 
the taxpayer rolls, saving us precious dollars in our operating 
expenses while enabling commercial space operations at the same 
time.
    Mr. Mica. Could you recite for the record what your 
operations--you were giving us that yesterday. It was $360 
million, $330 million?
    Mr. Cabana. Well, that was in 2013. What we initially went 
in with for a cost to run the center was in the ballpark of 
$370 million. By the time we got the budget and the 
sequestration and all the cuts were made, we were down to $320-
some million. So we are managing to live within that. But in 
order to do that, we have to become more efficient and cost-
effective, and we are doing that.
    Mr. Mica. Okay.
    Mr. Cabana. I would also like to add, if I could, when we 
were talking about being more commercial friendly, we don't 
think that we are onerous in bringing commercial operators in. 
Our goal is to make them as autonomous as possible.
    By way of example, I cast our safety assurance folks to 
look at what are the requirements to operate at KSC, and we 
have three models. We have purely NASA operations, joint use 
operations, and purely commercial operations. During Shuttle 
and our safety documentation, there were 2,200 shell 
statements, requirements that had to be met. We went through 
that and scrubbed that, what are requirements, what are best 
practices, and are there other ways to meet these requirements.
    We don't have to tell a commercial customer that he has to 
meet OSHA requirements, that he has to meet environmental 
requirements. That is law that they have to meet those. So we 
have gotten those 2,200 down to 55 shell statements in our 
safety documentation.
    We are working with the Range to figure out ways to launch 
in a more friendly manner, if you will. Customers have to meet 
commercial space requirements, get an FAA license in order to 
launch. Those requirements are the same as the Range 
requirements.
    So we are working to make commercial operations at KSC as 
user-friendly as possible and as autonomous as possible.
    Mr. Mica. Thank you.
    Mr. DeSantis?
    Mr. DeSantis. Thank you, Mr. Chairman.
    Jim Kuzma, can you give the committee an update on Space 
Florida's bid to construct a launch facility complex at Shiloh?
    Mr. Kuzma. Yes, sir. Thank you, Representative DeSantis.
    Currently, where we are at is that the center director 
approved that the environmental impact statement that is needed 
for the actual license would fall under the jurisdiction of the 
FAA Office of Space Transportation. Actually, tomorrow and 
Wednesday the scoping meetings for the environmental impact 
statement are being held both at New Smyrna High School and at 
the Eastern Florida State College, Titusville campus. It is 
there that the public will have the opportunity to identify 
issues and actually discuss a lot of the issues and 
alternatives that Mr. Lee spoke of at that time.
    At the same time, we are pursuing the other facets of a 
license, the licensing requirements to be a site operator, and 
will continue to do so, sir. We expect that the environmental 
impact draft will be ready in approximately July of 2015, which 
actually is aligned to one of our commercial customers looking 
at that as an option for their launch site.
    Thank you, sir.
    Mr. DeSantis. And what about Shiloh? Why did Space Florida 
choose that particular location?
    Mr. Kuzma. Sir, to be quite honest with you, it was in 
response to SpaceX looking at Texas as a launch site, moving 
away from the Cape. We did an exhaustive search up and down the 
east coast of Florida, five different sites, and actually the 
site selected was actually Launch Complex 36. It was presented 
to SpaceX. It was at that time that we were informed by the 
leadership at SpaceX that they would not look to a government 
range to host their commercial activities. They would do some 
from the Cape, and they are continuing to do that, but for a 
long-term look at a number of launches, they would look for 
another site that they could have that environment.
    I think one of the things that has to be pointed out is 
that Space Florida's mission is sometimes in tension with both 
NASA and the 45th. Our job is to grow the industry and be 
responsive. In that case the industry market, the leaders, and 
not only launch providers but their payload providers are 
looking for some of those assurances. We are looking to create 
that environment that they would have in Texas, and that is how 
we moved up toward Shiloh, which had been identified as an 
optimum site on two other occasions.
    Mr. DeSantis. And in terms of the private entities that 
were looking at commercial launch, why do they not want to use 
existing facilities? Why would something like Shiloh be more 
attractive to them?
    Mr. Kuzma. Sir, a lot of the entrepreneurs, if you will, 
they like to be in control of their own destiny, right? 
Unfortunately in the past, there have been occasions where a 
payload not being ready just from a throughput process 
specifically at the Cape, a long time ago. The rocket sat in 
the building and prevented any other activity. So you can 
relate that to when a lot of the commercial industry started 
going overseas for that.
    There have been different activities. The discussion of 
security is a big one with regard to national security. So when 
those come in, a lot of the customers have foreign customers, 
there are some challenges they are getting there. But quite 
honestly, during 9/11, and even in the most recent government 
shutdown, a lot of those folks were not permitted to go, not 
necessarily on the Air Force side but on the Cape side.
    It is a lot of different things that they look at, but it 
is really that a lot of them are looking to specifically 
optimize their opportunities. You have to realize, too, that 
they generate revenue by meeting timelines, and they pay fines 
if they don't meet their contractual requirements.
    Mr. DeSantis. You mentioned that sometimes there can be a 
tension between Space Florida and NASA. So how, with this whole 
issue with Shiloh, how has NASA responded to the bid?
    Mr. Kuzma. Sir, I would like to couch that as attention is 
really in the objectives, not in the relationship.
    Mr. DeSantis. No, I understand that. Absolutely.
    Mr. Kuzma. I think there was lots of discussion early on. 
But quite honestly, Director Cabana has been very supportive in 
us pursuing the environmental impact statement. We have not--
there are some options as to how the property, what kind of 
property transfer ownership would be there. But quite honestly, 
we decided that we needed to push through whether or not it was 
a viable location and address those during the actual process, 
and I think that is a very prudent way to approach it.
    Mr. DeSantis. So you anticipate kind of future negotiations 
with NASA? You think that those are likely to be productive?
    Mr. Kuzma. Yes, sir.
    Mr. DeSantis. Do you want to add?
    Mr. Cabana. If I could, sir, yes. NASA is neutral on this. 
As an owner of the property, we are a participating agency in 
the environmental impact statement. The environmental impact 
statement is being led by the FAA. If at some point there is a 
positive environmental impact statement and there is a business 
case that would justify it, then NASA would consider entering 
into negotiations.
    Mr. DeSantis. Very good.
    Just one more question on this for Mr. Kuzma. What benefits 
does Space Florida see to the community and taxpayers out of 
commercial space flight development in this region?
    Mr. Kuzma. Sir, I don't actually have the numbers. We can 
come back with an economic study to do that. But certainly, if 
you look at what--before we enter into any agreement, we look 
at both the number of jobs and actually the capital investment. 
So we are looking at close to--most of the time it is between 
150 and 250 jobs per commercial company. If you look at SpaceX, 
that is where they are going to be. And you are looking at 
investment from that company of somewhere between $60 million 
to $120 million.
    Mr. DeSantis. Very well.
    Well, I thank the witnesses. I really enjoyed listening to 
you, and I yield back.
    Mr. Mica. Mr. Bentivolio?
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    In a 2013 review, the NASA Inspector General reported that 
since 2005 the agency's operations and maintenance costs have 
increased by $173 million, or 44 percent. As of 2010, NASA had 
over $2.6 billion in annual deferred maintenance costs. 
According to the Inspector General, in 2013 NASA continues to 
retain real property that is underutilized, does not have 
identified future mission uses, or is duplicative of other 
assets in its real property inventory. In 2012, an internal 
agency-wide NASA review estimated that the agency may have as 
many as 865 unneeded, or I heard 720 now, facilities with 
maintenance costs of over $24 million annually.
    Mr. Cabana, according to NASA Inspector General, NASA's 
operation and maintenance costs have increased by 44 percent 
since 2005. What is the cause of any rising costs you see here 
at Kennedy?
    Mr. Cabana. So, at KSC, I should say that we took it very 
seriously what is in that report, and we are looking very 
closely again at what facilities we need, and we are divesting 
ourselves of those that we do not need. Obviously, with an 
aging infrastructure, maintenance costs continue to rise over 
time, and we are constantly repairing water lines and so on as 
we upgrade. In many cases, it makes much more sense to demolish 
an old facility and build something new.
    For example, our new propellants north facility is a leads 
platinum facility. It actually generates more electricity than 
it uses. It puts energy on the grid, and we get our electricity 
for free at night in that facility.
    So that is what we are doing. We are identifying the 
facilities that we need and getting rid of those that we don't, 
and trying to be very efficient in how we do it.
    The Chairman asked earlier how much rent we were getting. 
And again, this isn't profit. It covers the direct costs of 
those facilities also. But with our current agreements, we have 
$580,000 a year coming in in rent on those facilities. Again, 
that covers our costs to help provide the services that we do 
to those facilities also. But again, it takes them off our 
rolls where we are not paying those maintenance costs.
    Mr. Bentivolio. Now, I am new at understanding this 
bureaucratic process. Maybe you can help me here. When you 
identify a building or buildings that are going to be 
mothballed, abandoned or disposed, they go to the GSA, correct? 
You notify the GSA? Is that correct?
    Mr. Cabana. It depends. Only if we were going to sell it or 
if we were going to transfer it to another agency, and we are 
not actually selling the buildings. We are keeping them and 
either getting a use agreement for them, an enhanced use lease, 
a Space Act agreement, and they have to be something that would 
help enable commercial operations, space operations at the Cape 
as part of our mission.
    Mr. Bentivolio. Right, I understand that. What I am trying 
to get to is what is the process, the timeframe it takes? You 
have to notify GSA--do I understand this correctly?--that you 
are going to put this building up for rent or make it available 
to private enterprise that must meet certain requirements that 
you have set, right? So how long does it take before you come 
to the conclusion that nobody is interested and it is time to 
demolish the building?
    Mr. Cabana. I think it depends on the facility and the 
studies that are being done. I would have to defer to the 
representative from the GSA how long it takes to get through 
the process.
    Mr. Bentivolio. Mr. Smith, he notifies you that this 
building, he would like to put this building up for sale or 
lease. What is your process to advertise and ----
    Mr. Cabana. Sir, actually, we are not going through the GSA 
to lease our buildings.
    Mr. Bentivolio. Okay.
    Mr. Cabana. We are utilizing the GSA to transfer between 
Federal agencies. So those facilities at Cape Canaveral Air 
Force Station that are NASA facilities, my goal is to remove 
ourselves as much as possible from Cape Canaveral Air Force 
Station and just have the NASA facilities at Kennedy Space 
Center. So those facilities that we are transferring, we have 
to do that through the GSA.
    Mr. Bentivolio. So you have a limited market to lease these 
buildings.
    Mr. Cabana. Yes, sir.
    Mr. Bentivolio. How long does that take to see if anybody 
is interested? And if not, when you determine that it is going 
to be demolished, what is that process? What is the timeframe?
    Mr. Cabana. It could take as long as a year. It depends. 
Again, if we are going to demolish a facility, we have to have 
the funds to do that. So we have to work through NASA 
headquarters and our budget process, our construction 
facilities and the facilities maintenance folks.
    Mr. Bentivolio. Okay. So you don't have a customer. Now you 
want to demolish the building. What ----
    Mr. Cabana. If I identified it now, it would get put in the 
list of priorities at NASA as to what facilities, where had the 
highest priorities for the funds that were available in that 
budget year to provide it. So it may be next year, it may be 
the year after that. In the meantime, if it were not able to be 
demolished right away, it would be abandoned. It would be put 
in a safe state where we are not investing money to maintain it 
knowing that it is going to be demolished.
    Mr. Bentivolio. Thank you very much.
    With that, Chairman, I yield back.
    Mr. Mica. Thank you.
    Mrs. Miller, you are recognized.
    Mrs. Miller. Thank you, Mr. Chairman. Again, I thank you 
for calling this hearing this morning.
    I so much appreciate the premise of the hearing, but I also 
think that we can't be too hasty about certainly excessing 
property on this facility either. I mean, leasing buildings is 
one thing. Those can be--leases can be stopped, or they lapse 
or what have you. But I think turning property over or actually 
excessing property to the Department of Interior, as has been 
suggested by some testimony this morning, I think is totally 
something else because I think that could be very short-sighted 
by the nation.
    I think that optimally the space program will begin really 
ratcheting back up at some point. I mean, there is always an 
ebb and flow to these kinds of things. There is an ebb and flow 
to the economics, et cetera, and the space program in my mind 
needs to be, as I mentioned in my opening statement, Congress 
needs to think about ratcheting it up, revving it up a bit 
more, and it is not just some romantic concept, the space 
program. It is a critical component of our nation's ability to 
be positioned globally in the economic footprint when we think 
about STEM and some of the other kinds of things that have to 
be happening in our educational system.
    So I would say this. As we had an opportunity yesterday to 
tour, one of the things I heard from General Armagno, as well 
as in particular Mr. Cabana, was about the partnerships. That 
seemed to be sort of an operative phrase throughout the tour, 
partnerships with some of your commercial ventures, et cetera.
    But I think as we face the challenges really of utilizing 
the real estate here, obviously one of the priority issues must 
be security and how you can secure all of your facilities here 
and make sure you are protecting the taxpayers' assets, et 
cetera. But as has also been talked about here, and this sort 
of goes to my question a bit, when you think about the economic 
identity of the space coast's two biggest components, tourism 
certainly, but much of it is NASA, and also the port, what has 
been happening at the port is incredible in a very fantastic 
way.
    So how can the--is there more that can be done? As was 
talked about, the ELU, the Enhanced Land Use, I am pleased to 
see has been going through some of the process. I have had some 
experience with that at a base at my facility, and it is part 
of the total living experience, getting through that 
bureaucracy. So, good luck with all of that.
    But I think as we think about the potential and the 
possibility of a rail spur, the first thing that you would 
think about would be the security concerns about that, and I am 
appreciative of that. I sit on the Rail Subcommittee on the 
Transportation Infrastructure Committee. But really, one of my 
primary responsibilities in the Congress is sitting on Homeland 
Security. I am Vice Chair of the House Homeland Security. So I 
am very familiar with the kinds of new technologies that have 
been utilized for rail security, and believe me, it can happen. 
You can be in an extremely high level of confidence about the 
security of a rail spur coming out of the port, and I just sort 
of throw that out there, because when you think about the 
Panama Canal being expanded, I know that is part of the overall 
long-term master plan for the region here so that you are able 
to accommodate the larger SALT. Having an intermodal component 
is a very important thing, obviously, for the entire region.
    So I would just mention as well about what your thoughts 
are about the security concerns for the possibility of a rail 
spur, utilizing the existing rail through here. I would throw 
that out.
    Mr. Cabana. Yes, ma'am. So, I am still waiting to see the 
results of the study. After the study is complete, then we can 
make an informed decision. It will also require an 
environmental impact statement. But we are going to work with 
the port to see how we could get to accommodating that.
    The rail, as it goes right now, doesn't reach as far as it 
needs to. We would have to provide access. The port is going to 
have to figure out how to get from where the rail ends the rest 
of the way to the port. But we have easements in a number of 
our agreements. I am sure it is something we would be able to 
work if this ends up being the right thing to do, but it is 
still in the study phase. But we are very cautiously optimistic 
that we will get to a solution that is of benefit to both of 
us. So I am looking forward to the results of that study.
    I believe that we can make security work. We will figure 
out how to do that. Security is a huge concern. That goes into 
who we allow on-site, what companies we allow in. We don't just 
allow anybody in, and that is extremely important when you are 
dealing with the assets that we are dealing with.
    But we have also--I will mention we have an agreement with 
Space Florida for Exploration Park. It is a research and 
development park on NASA property but outside the secure 
perimeter that allows easier access for foreign nationals and 
so on. Right now it is anchored with the Space Life Sciences 
Lab, but soon another building is going to be added, and 
hopefully that will grow into an area where commercial 
companies can operate, can build and be in close proximity to 
the Space Center without actually being inside the secure 
perimeter.
    So security is a very important concern.
    Mrs. Miller. Thank you.
    And if I could, General, I am going to ask you another 
question, since I have a limited amount of time here. You were 
indicating yesterday in the tour about the drone that was here, 
the land station and the drone for the customs and border 
protection, the CBP.
    I think as we think about future BRACs, Base Realignment 
and Closure Commission, the country might not have the stomach 
right now for another BRAC, but there will be another BRAC. 
Another BRAC is going to come. I think as you look at what 
could happen here, even on Patrick really, but the idea of the 
total force concept of the partnerships again, with the 
Department of Homeland Security, I often tell the Secretaries 
of Homeland Security that they really miss the boat many times 
with these BRACs by not being proactive by looking at some of 
the existing properties, particularly geographically sited 
around the country for more of the components of homeland 
security.
    I don't know about the drone, but there are I think various 
kinds of things when you think about the maritime environment, 
the kind of challenges that we are all facing, whether it be 
the Coast Guard or the CBP, Air Force, et cetera, not only 
national security but homeland security, about the potential of 
utilizing some of the facilities here. So then you are not 
really looking at a commercial partner but another agency 
partnership that I think could be useful in the immediacy and 
also long-term planning to think about BRACs. Because, I will 
tell you, the next BRAC, total force concept is going to be a 
critical element of that. They are going to look at not just 
one element of DOD, or they will look at other agencies and 
those kinds of things when they look at the facilities 
throughout the inventory, domestically in particular I think.
    Do you have any comment on that, General?
    General Armagno. Thank you, Congresswoman Miller. I do. We 
work closely with our mission partners, even today, and 
together we are ensuring the viability of the space program 
here.
    But even beyond the space program, we have already a joint 
force with us, if you will. The Navy is on Cape Canaveral 
already, that is to the Naval Operations Test Unit. They test 
the Trident missile force.
    We work with the Army. They have land down around the port, 
as well as the Coast Guard has a squadron down there around the 
port.
    We already work with the Department of State, who has a 
flying unit at Patrick Air Force Base where they do a lot of 
the maritime interdiction, drug interdiction, and even other 
kinds of flying in combat areas, but they keep their aircraft 
at Patrick.
    So I know that we have great property with a lot of 
potential, a great place to fly, if you will, certainly a great 
place to launch rockets. But for any new customer that comes to 
us, we have to look at mission compatibility. I am entrusted 
with one mission, and that has to come first.
    So we have to look at the safety not only of the incoming 
customer but the public safety that I am entrusted with for the 
space launch business. We look at security, as well. We look at 
encroachment. Environmental issues are very important to us, as 
well as radio frequency emissions. We can't interfere in radio 
wave speak with the way we do business as well.
    So while we think that there is a lot of opportunity, I 
also have to balance the fact that I can't decrease the value, 
the military value of Patrick or Cape Canaveral Air Force 
Station.
    Mrs. Miller. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Posey?
    Mr. Posey. Thank you again, Mr. Chairman, not only for this 
hearing but also the time that you have taken and the members 
here have taken to get up to speed on some of these subjects. 
They are not something that typically a member of Congress goes 
around having the knowledge of what is going on at this port, 
what is going on at this space center, what is going on at this 
cape. I appreciate the members' time and interest they took to 
prepare themselves for this hearing today.
    Accountability is something that our citizens want. 
Unfortunately, many times elected officials in general, 
Congress in particular, are too busy to give any attention to 
accountability. There are other important matters that seem 
more important at the time. But you have been diligent in 
trying to bring better accountability, and I am very grateful 
to you for that.
    The same can be said for space. As you see by voting trends 
in the past, there is really not a whole lot of, overwhelming 
at least, support in Congress for our nation's space program 
even though it is a matter of our national security, it is a 
matter of our economic and technological advancement in this 
nation, and ultimately it will be responsible for the survival 
of our species.
    I recently heard, was honored to hear a lecture by Neil 
deGrasse Tyson, who I think is one of the most amazing 
ambassadors for the space program, and he brought out the point 
that funding for space is probably the only thing that Congress 
does that entirely is beneficial to the next generation. Most 
of the other money that we spend solves problems on Earth and 
in America or around the world for this generation here and 
now. Very little that we do is truly focused on future 
generations, and space is one of those points of focus.
    I wish and hope that someday we can make a commitment to 
our space program, maybe 1 percent of our budget for 25 years, 
straight line, so you can have some idea of what the future is 
going to be so we can properly plan and prepare for future 
space endeavors.
    I want to again go on record that I strongly support 
whatever efforts it takes to get rail service, as the chairman 
has long had an interest in and as Mrs. Miller has mentioned 
earlier here today, to our port. I don't think that should be 
something that is unachievable given the fact that we can put 
men on the moon and bring them back within a 10-year span. We 
have had about 40 years to get a rail spur to the Cape, and I 
don't think that should be a super-human feat if we focus 
proper attention on it.
    So I appreciate you giving me the time to participate in 
this hearing and to comment, Mr. Chairman. Thank you. I yield 
back.
    Mr. Mica. Thank you.
    Let me go over a couple of questions here. Like I said, we 
had this 2002 plan and the plan that you referred to, Mr. 
Director, and Mr. Lee said that that plan really looks at 
divesting at least to preservation or Mother Nature's 
stewardship the land north of 402. Is that correct?
    Mr. Cabana. Sir, our plan does not--there is no plan for 
any NASA development north of 402.
    Mr. Mica. But then we have the Shiloh project. That is 
north of 402?
    Mr. Cabana. Yes. That is Space Florida.
    Mr. Mica. Okay. And I understand that the firm that is 
looking at that is looking at also acquiring land. Would that 
be title land? Could that be title land to them, or leased 
land? I thought you had said everything had to be leased.
    Mr. Cabana. If we were to do it, we would not want to give 
up ownership of that land.
    Mr. Mica. Okay. But it would appear to me that there might 
be space below 402 for that type of activity, keeping what Mr. 
Lee has come to request, sort of pristine from that type of 
development. Is that a possibility, or is that being looked at?
    Mr. Cabana. In our master plan we have looked at another 
launch site just north of Pad 39B. You could call it 39C or 
some other name, but we have looked at the possibility of 
developing something there.
    Mr. Mica. Bringing that closer to the 402. I notice 402 
does--we have it up here.
    Mr. Cabana. Right. It would be closer to it but it would be 
on the south side of it.
    Mr. Mica. Okay, okay. That would make Mr. Lee happy. The 
record will reflect he has two thumbs up and a grin on his 
face.
    [Laughter.]
    Mr. Mica. Well, again, it is amazing how things change. Mr. 
DeSantis has the area in Volusia County, Canaveral National 
Seashore. The biggest thing I had, Ron, to worry about in my 
first 10 years was the nude bathing on the beach there, and now 
you guys have acquired the responsibility of this transition.
    This is a huge piece of property. I mean, I asked them how 
big is Manhattan. What is it? Thirty-seven square miles? This 
is 240 square miles, just your part, not the Air Force, and it 
stretches a long way. It has a lot of value, and you don't want 
to be short-sighted. I mean, we have two strong advocates over 
here. Well, the whole panel I think are strong advocates for 
the space program. We don't want to leave ourselves short-
sighted for the future.
    But you feel that the plan that was adopted in 2012, again 
utilizing that land south of 402, would be sufficient to carry 
our mission to any foreseeable future, Director and General? 
Yes? No?
    Mr. Cabana. For NASA's needs, yes.
    Mr. Mica. General?
    General Armagno. Mr. Chairman, thank you for the question. 
I am not familiar with the plan because that is not Air Force 
property.
    Mr. Mica. Okay. Well, I want you to look at the plan and 
then comment for the record. You have two weeks to do that, 
report back, okay?
    General Armagno. Yes, sir.
    Mr. Mica. And if you have to go above, ask them if they 
think it is adequate.
    And then if there is anything disposable that you can 
dispose of or--of course, no one wants to preclude what has 
been talked about here for economic development of the port. 
That is a big economic generator. We heard Mr. Kuzma testify, 
250 jobs you gave the amount of investment.
    Mr. Walsh, what kind of jobs could we have if we had the 
port connection and the additional land there? A guesstimate.
    Mr. Walsh. Our projections are 5,000 within the next ----
    Mr. Mica. Five thousand.
    Mr. Walsh. Five to seven.
    Mr. Mica. My goal would be--we have gone from 18,000 down 
to 8,000, and I think you have started actually--he didn't take 
credit for it, the Director didn't, but I think we hit bottom, 
and now we are employing people using some of these facilities.
    So our goal would be get it past that 18,000, not only with 
the space activity but also other economic potential. That is a 
very significant figure.
    All right, GSA. You had the 54,000, and here again the 
Director didn't give himself much credit. You showed us a 
building yesterday that you were transferring other government 
activities into. How big was that space? The Director.
    Mr. Cabana. Which one? I am trying to remember.
    Mr. Mica. You were telling us that you had moved another 
agency into a building it was going to occupy. Was that one of 
yours?
    Mr. Cabana. No, no. What I was talking about was we were 
moving into--I took my engineering team and consolidated. I 
moved all my engineering directorate into a newer building.
    Mr. Mica. That was the building across ----
    Mr. Cabana. Across from the vehicle assembly.
    Mr. Mica. Across from the vehicle assembly? No, we passed 
another building, and I thought you said that they were going 
to have someone come into that from another agency.
    Mr. Cabana. That was a building also that we have leased to 
Space Florida that was part of the OPF Bay 3.
    Mr. Mica. Okay, so that is private.
    Mr. Cabana. That is a private company.
    Mr. Mica. Okay. So, Smith, you got 54,000 square feet from 
him?
    Mr. Smith. Yes, sir.
    Mr. Mica. How long have you had it?
    Mr. Smith. I think the access came in the January 
timeframe.
    Mr. Mica. When? This year?
    Mr. Smith. This year.
    Mr. Mica. Okay. I hope some of that is prompted by the 
action of the committee.
    Mr. Smith, I am sure I will see you again and I will be 
asking you the status of making that available or whatever we 
are going to do with it.
    And since I have you here for another one, I think we are 
making some progress on the Dyer Courthouse? It was six or 
seven years now vacant in Miami?
    Mr. Smith. Sir, we are working with Miami-Dade College.
    Mr. Mica. I appreciate that, and I got the report back. 
They are interested in a potential lease. How long do you think 
that is all going to take to review and get a decision on it?
    Mr. Smith. We are supposed to sit down with them. We are 
looking for a good win/win situation.
    Mr. Mica. Could you tell me, the committee, provide me in 
the next two weeks when you plan to sit down with them, and 
then give me chronological order for submission in this record 
as to what timeframe you think that could be accomplished?
    Mr. Smith. I will.
    Mr. Mica. Okay. I just had Dr. Padron and others. This is a 
vacant courthouse. I think we are going six or seven years now 
in Miami, and we had two hearings, one at the community college 
which is across the street from the vacant Federal courthouse 
where we did our first hearing about two years ago. We are 
getting up to two years, yes.
    All right. Again, sorry to give you a hard time, Mr. Smith. 
That is what I am getting paid for.
    But right-sizing this property is a challenge both for NASA 
and also for the Air Force.
    Now, let's go back to Kuzma. From the outside, you have had 
to deal with this in a big way, getting your foothold here. 
Anything we can do to speed up the process, your 
recommendation? They are not going to cancel your lease, at 
least not this week, so just be frank with us.
    [Laughter.]
    Mr. Mica. You would be surprised how hard it is to get 
people to testify. I mean, really, it is. We have done some of 
these Federal property, and I can't get a witness. I have 
offered a bag over their head and a screen, and they won't come 
near us to talk because they are afraid of retribution from 
either GSA or some Federal agency.
    But you have a past here. Go ahead and tell us anything 
positive that would help the process from what you have seen.
    Mr. Kuzma. Thank you, sir. I think one of the things that 
may get lost at times is that Space Florida is accountable to 
the Office of the Governor. So our requirements are a little 
different than some of our Federal partners, and we are looking 
at that partnership between the two to be beneficial to us, to 
be able to track those customers and different things.
    I think you may have used a great example with six years 
for a building. All the buildings I think, many of the 
buildings that the Director showed you--OPF-1, OPF-3, the ONC 
Building, Launch Complex 41 that was modified for ELV, the 
Space Life Science Lab, the ROV hangar at the Shuttle 
interstate--all those were, in fact, Space Florida where 
Florida has put resources in there to draw those companies 
here.
    It is tough to transition those facilities. You have to 
find the right partners. We do a lot of due diligence on those, 
too.
    Mr. Mica. It is pretty amazing. Three years is the last 
launch out of 39?
    But again, my question for the record is, is there anything 
you can recommend to the committee? We will go back, look at 
legislation. We will look at kicking agencies in the tail to 
move them forward, whatever it takes, anything you want to 
offer today.
    Mr. Kuzma. Sir, I think we looked ----
    Mr. Mica. Or you can submit for the record if you don't 
want to ----
    Mr. Kuzma. I think I would like to submit for the record, 
sir.
    Mr. Mica. Okay.
    [Laughter.]
    Mr. Kuzma. Thank you for that option, sir.
    [Laughter.]
    Mr. Mica. All right. Well, again, our goal here is to take 
this incredible national treasure that has a little bit of rust 
and a little mold, some of it sitting idle, but to brush it off 
and see what we can do with it to turn it into the very best 
asset for the taxpayers, and then hopefully get jobs and 
economic activity, get the private sector involved, as they 
should be, in the space mission as a good partner. And then 
from our defense standpoint, this is a very important asset, 
and maximizing that too.
    Finally, General, how many launch pads are empty and how 
many are being used, just for the record?
    General Armagno. Mr. Chairman, there are a total of 47 
launch pads. Of those, three are active on the Air Force side. 
Two are NASA's, 39A and B. Nine were never built. Six are 
national historic landmarks right now and inactive. And there 
are 20 that are deemed inactive, but we did a review of those 
20, and only eight of them are unencumbered by other activities 
going on on the base.
    Mr. Mica. Okay. Well, I mention that so it is in the record 
so people will know and they can contact you. Some of the 
hearings we have done, they have actually gone out and put 
``For Lease'' on the building after we had done the hearing. I 
don't expect you to do that, although you could fly a couple of 
those planes with banners. But just, again, getting out there 
to the public that we have these facilities, and maybe some 
investors, and we want to make Florida attractive, because 
other states and countries are attracting private-sector 
activity for those types of uses.
    Other members have any follow-up questions?
    Mr. DeSantis?
    [No response.]
    Mr. Mica. Mr. Bentivolio?
    [No response.]
    Mr. Mica. Mr. Posey?
    Mr. Posey. Thank you, Mr. Chairman. I am going to wrap this 
up, following up on a request that you made.
    Just as a bit of history for members that might not have a 
real long history of our program, the buzz right now is about 
commercial space and a lot of focus by the Air Force and NASA 
on commercial space. That is why Space Florida exists.
    There was a time when America virtually had a monopoly on 
commercial space. One hundred percent of the satellites 
fundamentally were launched from right here.
    Under the old business model with NASA and the Air Force, 
we basically choked the Golden Goose to death with red tape and 
over-regulation, launch fees and other disincentives. Many in 
the commercial space industry found it much more advantageous 
to operate in other countries where, in fact, instead of over-
regulating and essentially taxing the commercial space 
industry, they subsidized it. So pretty soon we became not very 
competitive, and we went from 100 percent of the world's 
commercial launch business to probably less than 10 percent. We 
are trying to get that back now.
    At one point, there was a master plan signed by the Air 
Force, by NASA, by Space Florida, everyone with an interest, 
saying we would have a commercial launch center inside the 
gates of the Space Center, a range within the Range. We know, 
of course, that all this is subject to the Air Force's dominion 
of every inch of air space, probably from Jacksonville to Miami 
they control.
    So while it is often easy to say, well, why don't people 
run in and use some of these other empty launch pads, there are 
some practical reasons why. If you are on Pad 1 and I am on Pad 
2, and we have different launch schedules, there are times when 
you can't do anything if I am right next door. So just some 
practical things that you don't think about.
    People say, well, they have unused launch pads, so simply 
just use those. But there are other reasons for doing that. 
There is also infrastructure cost that I am going to put into a 
long-term investment if I have a long-term commitment for it, 
and I am not going to put in that long-term investment if I 
don't have the long-term commitment.
    So what I am kind of driving at is, to follow up on your 
question that you asked for responses to, if not Shiloh, tell 
the chairman where you think a range within a range viable for 
future launch operations for commercial space would be located, 
if not Shiloh? If you would include that in your responses to 
the chairman in the next couple of weeks, I would appreciate 
it.
    Mr. Mica. Thank you, and we will leave the record open for 
a period of two weeks. We will have additional questions we 
will be submitting to the witnesses that we will enter in the 
record also.
    Mr. Mica. First of all, again, I have to thank our 
witnesses. Director Cabana is a pretty modest guy in his 
presentation here today. I was very impressed with him 
yesterday, and I will never forget standing with him in the 
vehicle assembly building, the VAB, which is one of the largest 
single structure buildings I think in the world. Somebody told 
me you can see it from the moon. But he told me that he came, I 
guess, as a Naval cadet, came into that building many, many 
years ago, a young Naval guy, and who would have thought that 
he would be directing actually the future of that many, many 
years later.
    But I was very impressed because sometimes we will pick 
people who aren't always the best choices to direct some of 
these operations. But here is a guy that started out from the 
very beginning and having experience in the program as an 
astronaut, a whole host of activities, and then ends up here. 
So I think it is a very good choice, and we were impressed with 
what we saw yesterday.
    We have lit a fire under them, quite frankly, the last 
year, and so has Congress the last couple of years to move 
forward, the various committees, particularly the Space and 
Science Committee. But our intent is, again, on behalf of the 
people.
    Also, I think we are fortunate to get the general here, 
General Armagno, because she had experience at Vandenberg, sent 
at the perfect time. Mr. Posey and I had heard the ``just say 
no'' for long enough, and she has a vision hopefully for the 
future that we can work with.
    Mr. Smith, he continues to take my abuse and yet returns to 
GSA and does it all very cheerfully, and hasn't hired anyone to 
take me out yet.
    Again, it was exciting to hear from Mr. Kuzma. They have 
actually broken through all of this and have a number of 
exciting projects that are and will be employing people and get 
us to the next level of activity in space competition 
nationally and internationally.
    Mr. Lee, always the protector of the environment with the 
Audubon Society, and will hopefully go away with a semi-smiling 
face today, but always there doing a good job and protecting 
our natural treasures.
    And thanks, Mr. Walsh, for participating. I think of all 
the things I heard, when you said 5,000 jobs, if that doesn't 
make you salivate, nothing will.
    So hopefully we can expedite where we all want to get, and 
that is in a positive direction.
    There being no further business before the subcommittee 
today, this meeting is adjourned. Thank you.
    [Whereupon, at 11:00 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
